No. 20-1088

 

IN THE
Supreme Court of the United States
DAVID CARSON, ET AL,
Petitioners,
Vv.

A. PENDER MAKIN, IN HER OFFICIAL CAPACITY AS COMMISSIONER OF THE MAINE
DEPARTMENT OF EDUCATION,

Respondent.

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief of Amicus
Curiae The Jewish Coalition of Religious Liberty contains 5,156 words, excluding the
parts of the brief that are exempted by Supreme Court Rule 33.1(d).

Executed on March 10, 2021.

 

JANCE DEFENDING FREEDOM
440 First Street NW
Suite 600

Washington, DC 20001
(616) 450-4235
jbursch@ADFlegal.org
